i

i

No.

Supreme dkrart nf ®lfe llttttrii #tateH
Norine Cave
Petitioner,
v.
Delta Dental Of California,
Respondent.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
for the Ninth Circuit
APPENDIX

Norine Cave
Petitioner

P.O. Box 801041
Acworth, GA, 30101
norine.s.cave@gmail.com
404-963-0309
Pro se

APPENDIX CONTENTS
Appellants Correspondence to The Court Concerning Possible Conflict of
Interest: Attention Clerk Of Court......................
2a
Appellant's Correspondence Conflict Of Interest
..2a-23a
Appellee's Response To Correspondence.............
24a-27a
Ninth Circuit Appeals MEMORANDUM............
30a-32a
Ninth Circuit Appeals ORDER denying Appellant's Pet. for Rehearing... 33a
Ninth Circuit Appeals MANDATE.............................................................. 34a
District Court ORDER Granting Motion to Dismiss and leave to Amend
Appellant's Complaint.................................................................
.35a-41a
District ORDER on Motion to Dismiss Appellant's Complaint
42a-52a
District Court Exhibit 102..........................................................
53a-56a
District Court Exhibit 103...........................................................
57a-58a
District Court Exhibit 105...........................................................
59a-60a
District Court Exhibit 106...........................................................
61a-62a
District Court Exhibit 107...........................................................
63a
Exhibit 201 District Court e-mail..............................................
64a-65a
Exhibit 202 District Court e-mail..............................................
66a-67a

ERISA § 502(a).................................................................
29 C.F.R. § 2575.502c-1....................................................

1a

68a
78a

P OT /)
Case: 18-17134,12/18/2019, ID: 11536550, DktEntry: 23-1, Page 1 of 3

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

DEC 18 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
NORINE SYLVIA CAVE,

No.

Plaintiff-Appellant,

US. COURT OF APPEALS

18-17134

D.C. No. 3:18-cv-01205-WHO

v..
MEMORANDUM*

DELTA DENTAL OF CALIFORNIA,
Defendant-Appellee,
and
DELTA OF CALIFORNIA,
Defendant.
Appeal from the United States District Court
for the Northern District of California
William Horsley Orrick, District Judge, Presiding
Submitted December 11,2019"
Before:

WALLACE, CANBY, and TASH1MA, Circuit Judges

Norine Sylvia Cave appeals pro se from the district court’s judgment in her

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

30 a

(Z OT /)

Case: 18-17134,12/18/2019, ID: 11536550, OktEntry: 23-1, Page 2 of 3

action under the Employee Retirement Income Security Act of 1974 (“ERISA”),
We have jurisdiction under 28 U.S.C, § 1291. We review de novo. Hebbe v.
Pliler, 627 F.3d 338, 341 (9th Cir, 2010) (dismissal under Fed. R. Civ. P.
12(b)(6)); Toguchi v. Chung, 391 F.3d 1051, 1056 (9th Cir. 2004) (summary
judgment). We affirm.
The district court properly dismissed Cave’s breach of fiduciary duty claim
because Cave failed to allege facts sufficient to state a plausible claim. See 29
U.S.C. §§ 1132(a)(2), 1132(a)(3); Gabriel v. Alaska Elec. Pension Fund, 113 V3d
945,954 (9th Cir. 2014) (“A claim [under § 1132(a)(3)] fails if the plaintiff cannot
establish . .. that the remedy sought is appropriate equitable relief

(citation

and internal quotation marks omitted)); Wise v. Verizon Commc’ns, Inc., 600 F.3d
1180, 1189 (9th Cir. 2010) (“To allege a fiduciary breach under § 1132(a)(2), [the
plaintiff] must allege that the fiduciary injured the benefit plan or otherwise
jeopardize^] the entire plan or put at risk plan assets.” (citation and internal
quotation marks omitted, some alterations in original)).
The district court properly granted summary judgment on Cave’s claim for
penalties because Cave failed to raise a genuine dispute of material fact as to
whether defendant failed to produce documents that a plan administrator is
required to produce. See Lee v. 1NG Groep, N. V., 829 F.3d 1158, 1162 (9th Cir.
2016) (“Penalties under 29 U.S.C. § 1132(c)(1) can only be assessed against plan

2

31 a

18-17134

{6 01 /}

Case: 18-17134,12/18/2019. ID: 11536550, DktEntry: 23-1, Page 3 of 3

administrators for felling to produce documents that they are required to produce
as plan administrators.” (citation and internal quotation marks omitted)).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief. See Padgett v. Wright, 587 F.3d 983,985 n 2 (9th Cir. 2009).
We reject as without merit Cave’s contentions that counsel for defendant and
the district judge had conflicts of interest.
AFFIRMED.

3

32 a

18-17134

NINTH CIRCUIT ORDER
Case; 18-17134, 03/23/2020, ID: 11638378, DktEntry: 25, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 23 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

NORINE SYLVIA CAVE,

No. 18-17134

Plaintiff-Appellant,

D.C. No. 3:18-cv-01205-WHO
Northern District of California,
San Francisco

v.
DELTA DENTAL OF CALIFORNIA,

ORDER

Defendant-Appellee,
and
DELTA OF CALIFORNIA,
Defendant.
Before:

WALLACE, CANBY, and TASHIMA, Circuit Judges.

The panel has voted to deny die petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R,
App P 35.
Cave’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 24) are denied.
No further filings will be entertained in this closed case.

33 a

Case: 18-17134, 03/31/2020, ID: 11646833, DktEntry; 26, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 31 2020
MOLLY C. WPt&t, CLERK
U.S. COURTOF AJ•PEALS

NORINE SYLVIA CAVE,

No. 18-17134

Plaint iff - Appellant,

D C. No. 3:18-cv-01205-WHO
U S. District Court forNorthem
California, San Francisco

v,
DELTA DENTAL OF CALIFORNIA,

MANDATE
Defendant - Appellee,
and
DELTA OF CALIFORNIA,
Defendant.
The judgment of this Court, entered December 18, 2019, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

34 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 1 of 7

I
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

NORINE SYLVIA CAW,
Plaintiff,

8

9
10

II

-•1

as

33
1 o

12
13

Case No. 18-cv-0120S-WHO
ORDER GRANTING MOTION TO
DISMISS

v.

Re: Dki. No. 10,12,18

DELTA DENTAL OF CALIFORNIA,
Defendant.

INTRODUCTION
Plaintiff Norine Sylvia Cave brings this action against defendant Delta Dental of California

14

(“Delta Dental”), alleging claims of bad faith and a violation of Cave’s civil rights under the

15

Health Insurance Portability and Accountability Act (HIPAA). Delta Dental moves to dismiss all

16

claims against it. Because I find that Cave’s alleged claims fail as a matter of law, I DISMISS

17

WITH PREJUDICE Cave’s bad faith and HIPAA claims. But given Rule 15’s liberal amendment

18

standard, 1 GRANT Cave’s request to amend her complaint to add claims under section 502 of the

19

Employee Retirement Income Security Act (ERISA).

£ V.

gs

II
2

20
21

BACKGROUND
Cave obtained dental benefits through the Entertainment Industry Flex Plan, group number

22

07578-00001. Complaint (CompL), Ex. G at 1 (Dkt. No. I). On October 21,2013, Cave

23

consulted with Dr. Suvidha Sachdeva of Coast Dental of Georgia for dental services. Id. ^4. As a

24

part of that consultation, Cave received a comprehensive exam and Dr. Sachdeva recommended

25

crown replacements of allegedly fractured veneers on teeth #8 and #9, indicating that the teeth

26

could no longer support veneers due to decay. Id. Approximately three months later, Dr.

27

Sachdeva initiated the procedure to replace the crowns on teeth #8 and #9. Id. The next day Dr,

28

Sachdeva submitted a benefits claim to Delta Dental for the crowns. Id.

35 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 2 of 7

1
2

that Dr. Sachdeva had committed fraud in recommending crown replacements. Id. Specifically,

3

upon review of Cave’s x-rays and documentation, other doctors suggested that teeth #8 and M9 did

4

not require replacement of the veneers. Id. Cave believes that Dr. Sachdeva diagnosed otherwise

5

in order to receive payment for the unnecessary dental treatment. Id. She alleges that once she

6

filed this grievance, Della Dental should have examined all records and x-rays to determine

7

whether she actually needed her veneers replaced rather than approved the claim by Dr. Sachdeva.

8

Id.% 11.

9

nIS
.3

|.i

1J
E c

On April 30,2014, Cave filed a grievance with Delta Dental, indicating that she suspected

Delta Dental {a California corporation) responded to Cave’s grievance, informing her that

10

California Health and Safely Code section 1371.5, provides that Delta Dental and Dr. Sachdeva

11

are responsible for their own acts or omissions and not liable for the acts and omissions of each

12

other. Id. K 5, Ex. B. It also advised her that “the diagnosis for crowns for [her] teeth numbers 8

13

and 9 were one of the appropriate treatments of choice due to Dr. Sachdeva’s documentation that

14

the existing veneers 8 and 9 were chipped.” Id., Ex. B. But it further told her that it was “unable

15

to confirm or deny the acceptability of [] crown numbers 8 and 9” because Dr. Sachdeva did not

16

submit x-rays of diagnostic quality, meaning that Delta Dental’s dental consultant could not have

17

determined whether she needed new' crowns prior to Dr. Sachdeva’s decision to replace her

18

veneers. Id. Cave alleges that a proper review of the x-rays should have resulted in Delta Denial

19

not paying the claim because the x-rays did not reveal any condition that would justify crown

20

treatments. ld.\ 6.

21

In May 2014, Cave requested copies of the treatment plan and x-rays submitted to Delta

22

Dental by Dr. Sachdeva for her review. Id. ^ 7. Della Dental denied the request, stating that

23

California Health and Safety Code section 1370 protects the documents that Cave requested from

24

discovery. Id., Ex. C. It advised her that she could request copies of treatment notes from the

25

dentist directly under section 123110 of California’s Health and Safety Code, requiring that a

26

dentist provide copies of x-rays and records upon written request. Id. It also noted that Georgia

27

may have a similar law. Id.

28

On September 10,2014, Cave responded to Delta Dental’s letter with “viable and
2

36 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 2 of 7

1

On April 30,2014, Cave filed a grievance with Delta Dental, indicating that she suspected

2

that Dr. Sachdeva had committed fraud in recommending crown replacements, id Specifically,

3

upon review of Cave’s x-rays and documentation, other doctors suggested that teeth #8 and #9 did

4

not require replacement of the veneers, id. Cave believes that Dr. Sachdeva diagnosed otherwise

5

in order to receive payment for the unnecessary dental treatment. Id. She alleges that once she

6

filed this grievance, Delta Dental should have examined all records and x-rays to determine

7

whether she actually needed her veneers replaced rather than approved the claim by Dr. Sachdeva.

8

id.]|11.

9

Delta Dental (a California corporation) responded to Cave’s grievance, informing her that

10

California Health and Safety Code section 1371.5, provides that Della Dental and Dr. Sachdeva

II

are responsible for their own acts or omissions and not I iable for the acts and omissions of each

12

other, id. 5, Ex. B. It also advised her that “the diagnosis for crowns for pier] teeth numbers 8

13

and 9 were one of the appropriate treatments of choice due to Dr. Sachdeva’s documentation that

14

the existing veneers 8 and 9 were chipped.” id., Ex. B. But it further told her that it was “unable

PS

15

to confirm or deny the acceptability of f] crown numbers 8 and 9” because Dr. Sachdeva did not

1°

16

submit x-rays of diagnostic qualify, meaning that Delta Dental’s dental consultant could not have

II

17

determined whether she needed new crowns prior to Dr. Sachdeva’s decision to replace her

18

veneers, id. Cave alleges that a proper review of the x-rays should have resulted in Delta Dental

19

not paying the claim because the x-rays did not reveal any condition that would justify crown

20

treatments, ld.% 6.

r‘I

I £

al
|o

£ v.

-g g

21

In May 2014, Cave requested copies of the treatment plan and x-rays Submitted to Delta

22

Dental by Dr. Sachdeva for her review, id. \ 7. Delta Dental denied the request, stating that

23

California Health and Safety Code section 1370 protects the documents that Cave requested from

24

discovery, id., Ex. C. It advised her that she could request copies of treatment notes from the

25

dentist directly under section 123110 of California’s Health and Safety Code, requiring that a

26

dentist provide copies of x-rays and records upon written request. Id. It also noted that Georgia

27

may have a similar law. id.

28

On September 10,2014, Cave responded to Delta Dental’s letter with “viable and
2

37 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 4 ot 7

1

dismiss, the plaintifT must allege “enough facts to state a claim to relief that is plausible on its

2

face.” See Bell At). Corp. v. Twombly, 550 U.S. 544,570 (2007). A claim is facially plausible

3

when the plaintiff pleads facts that “allow the court to draw the reasonable inference that the

4

defendant is liable for the misconduct alleged.” See Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)

5

(citation omitted). There must be “more than a sheer possibility that a defendant has acted

6

unlawfully,” Id. While courts do not require “heightened fact pleading of specifics,” a plaintiff

7

must allege facts sufficient to “raise a right to relief above the speculative level.” See Twombly,

8

550 U.S. at 555,570.

9

*

10

Court accepts the plaintiff’s allegations as true and draw's all reasonable inferences in favor of the

11

plaintiff. See Usher v. City ofLos Angeles, 828 F.2d 556, 561 (9th Cir. 1987). However, the court

12

is not required to accept as true “allegations that are merely conclusory, unwarranted deductions of

II 13
IS 14
° a

In deciding whether the plaintiff has stated a claim upon which relief can be granted, the

fact, or unreasonable inferences.” See In re Gilead Set's. Sec. Litig., 536 F.3d 1049,1055 (9th Cir.
2008).

15

Pro se pleadings must be held to a less stringent standard than those dratted by lawyers.

5= »

Haines v. Kemer, 404 U.S. 519,520*21 (1972). Nevertheless, a complaint, or portion thereof,

2 £

ll "
S ©

Z

should be dismissed if it fails to set forth “enough facts to state a claim to relief that is plausible on

18

its face.” Twombly, 550 U.S. at 554. “[A] district court should not dismiss a pro se complaint

19

without leave to amend unless it is absolutely clear that the deficiencies of the complaint could not

20

be'cured by amendment.” Akhtarv. Mesa, 698F.3d 1202,1212 (9th Cir. 2012) (quotations

21

omitted).

22
23
24

DISCUSSION
I.

CONTINUANCE
Following the completion of the briefing on Delta Dental’s motion to dismiss. Cave filed a

25

motion “for continuance,” asking me to continue the hearing on Delta Dental’s motion to dismiss

26

until sometime after the Department of Health and Human Services Office of Civil Rights had

27

fully investigated and resolved a complaint filed by Cave. Dkt. No. 18. It is unclear who the DHS

28

OCR complaint was filed against or what grounds were asserted in that complaint. It appears that
4

38 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 5 of 7

1

Cave may be complaining about Delta Dental’s failure to provide her with copies of her “full

2

medical records” (Dkt. No. 18 ^ 4) and/or about a potential violation of HI PA A. Dkt. No. 19

3

(Delta’s Oppo. to Continuance) at 2.

4
5

HIPAA as a matter of law and that those claims must be dismissed with prejudice. There is no

6

need to delay the decision on Delta Dental’s motion; there is nothing that could come out of the

7

DHS OCR investigation that would affect my resolution of those issues. Therefore, Cave’s

8

motion to continue is DENIED.

9

II,

10

i

*

Cave alleges that Delta Dental conducted itself in bad faith when it undertook several
actions related to its payment of the claim filed by Dr. Sachdeva: (i) failing to substantiate the

>2

need for treatment as dictated by its own standards and procedures, and therefore supporting Dr,

13

Sachdeva’s allegedly fraudulent claim; (ii) supporting “chipped veneers” as the basis for crown

Si 14

15

II «
|l 17
Z

BAD FAITH

II

e

® .y

As explained below, I conclude that Cave cannot state claims for bad faith and violation of

placements where there was no evidence; (iii) repeatedly denying Cave’s request for review/copy
of full medical/dental records; and (iv) misapplying California’s Evidence Code section 1157 and
Health and Safely Code section 1370 to prevent release of her medical records. Compl.

16,2

Delta Dental contends that Cave’s bad faith claim must be dismissed because it is preempted by

18

ERISA. Even if the bad faith claim is not preempted, Delta Dental asserts that it is barred because

19

liability for bad faith is limited to situations where benefits due are withheld or denied and it is

20

time-barred by the applicable statute of limitations.

21

Where an insurance policy is governed by ERISA, state law claims related to the

22

processing of claims under that policy are preempted by ERISA. See Chamblin v. Reliance Stand

23

Life Ins. Co., 168 F. Supp. 2d 1168, 1177(N.D. Cal. 2001) (“a plaintiff who brings a cause of

24

action for bad faith against an insurer who denies benefits under an ERIS A benefit plan is bringing

25
26
27
28

2 A claim of bad faith such as the one that Cave alleges is also known as a claim for breach of the
implied covenant of good faith and fair dealing. See Gruenbergv. Aetna Ins. Co., 9 Cal .3d 566,
574 (1973) (“[An insurer that) fails to deal fairly and in good faith with its insured by refusing,
without proper cause, to compensate its insured for a loss covered by the policy, such conduct may
give rise to a cause of action m tort for breach of an implied covenant of good faith and fair
dealing.").
5

39 a

Case 3:18-cv-O1205-WHO Document 29 Filed 05/30/18 Page 6 of 7

1

a cause of action for the improper processing of a claim, that such a cause of action is related to

2

the benefit plan and that the claim is therefore preempted by ERISA”) (relying on Kanne r.

3

Connecticut General Life Ins. Co., 867 F.2d 489 (9th Cir. 1988)). Della Dental asserts that the

4

insurance policy under which Cave sought dental treatment is governed by ERISA, and Cave does

5

not dispute this fact. Because Cave cannot bring a claim for “bad faith” under California law, any

6

actionable claim related to Della Dental’s processing of her claim must be asserted under ERISA.

7

Cave’s “bad faith” claim, therefore, is DISMISSED WITH PREJUDICE.

8
9

That said, as clarified by her Opposition to die motion to dismiss (as well as the briefing
with respect to her request for a continuance, addressed above), Cave seeks to address the

10

substance of her bad faith claim as a breach of fiduciary duty claim under ERISA. See Dkt. Nos.

11

16,20.3 As such, Cave is given leave to amend to assert a claim under ERISA with respect to her

«

'2

allegations that Delta Dental breached its fiduciary duties under ERISA by (i) failing to properly

11

13

investigate the allegations of fraud by Dr. Sachdeva and (ii) failing to turn over Cave’s complete

14

medical records and case file upon her request.4

15

III.

SI

:iSHo
|s

VIOLATION OF CIVIL RIGHTS UNDER HIPAA

.6

Cave alleges that, in rejecting her request to obtain and review her medical records. Delta

3 "
c e

17

Dental inappropriately relied on section 1370 of California’s Health and Safety Code in violation

Z

18

of her right to access her health information under HIPAA pursuant to 45 CFR section 164.524.

19

However, there is no private right of action under HIPAA. Webb i>. Smart Document Solutions,

20

LIC, 499 F.3d 1078,1082 (9th Cir. 2007) (“HIPAA itself does not provide for a private right of

•o E

3 ©

21
22
23
24

25
26
27

28

31 recognize that Cave has not formally made a motion for leave to amend to allege a claim under
ERISA, and only requests leave in her Reply in support of her motion for a continuance. Dkt. No.
20. However, given that she is proceeding pro se and given Rule 15’s liberal standards for
amendment at the inception ofa case, Cave is given leave to file an Amended Complaint asserting
claims under ERISA.
4 Even if not preempted by ERISA, Cave’s bad faith claim would still fail as a matter of law for
the additional reason that an alleged failure to investigate an insured’s claim properly may
constitute a breach of the implied covenant of good faith and fair dealing only if such failure
results in wrongfully denied benefits. Egan v. Mut. ofOmaha Ins. Co., 24 Cal.3d 809, 817 (1979).
Here, there is no allegation that Delta Dental failed to pay or denied Cave’s claim for benefits. I
need not reach Delta Dental’s third argument, regarding the statute of limitations, which depends
on whether Cave’s bad faith claim sounds in tort or breach of contract. See Archdale v. Am.
Intern. Specialty Lines Ins. Co., 154 Cal. App. 4th 449,468 (Cal. App. 2d Dist. 2007).
6

40 a

Case 3:18-cv-01205-WHO Document 29 Filed 05/30/18 Page 7 of 7

I

action”); set also 65 Fed. Reg. 82601 (Dec. 28,2000) (“Under HIPAA, individuals do not have a

2

right to court action.”). HIPAA “specifically indicates that the Secretary of Health and Human

3

Sen-ices shall pursue the action against an alleged offender, not a private individual.” Johnson v.

4

Quander, 370 F. Supp. 2d 79,100 (D.D.C, 2005) (citation omitted). This means that only the

5

government can bring a claim against Delta Dental for violation of HIPAA. Accordingly, because

6

Cave cannot bring a claim under HIPAA, her second cause of action is DISM ISSED WITH

7

PREJUDICE. As with her bad faith claim, Cave is given leave to amend to assert a claim under

8

ERISA with respect to the alleged improper denial of access to her medical records.

9
10
11

CONCLUSION
For the reasons discussed above, Cave’s claims for bad faith and violation of civil rights
under HIPAA are DISMISSED WITH PREJUDICE. However, Cave is given leave to amend for

I -

the limited purpose of pleading claims for breach of fiduciary duty under ERISA related to Delta’s

81 13

processing of her claim and the alleged failure to provide her with the documents she requested.. If

1? »
S! »
° .3

15

SIZ 1718

Cave wishes to take advantage of this limited leave to amend, she must file an Amended
Complaint asserting claims under ERISA within twenty (20) days of the date of this Order.
IT IS SO ORDERED.
Dated: May 30,2018

\LAQj2.

19

Wimam H. Orrick
United States District Judge

20
21
22
23
24
25
26
27
28
7

41 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 1 of 11

l
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

NORINE SYLVIA CAVE,
Plaintiff,

8
9
10
II
-2

12

I i

Case No. 18-cv-O1205-WHO
ORDER ON MOTION TO DISMISS

v.

Re: Dkt. Nos. 37, 39
DELTA OF CALIFORNIA,
Defendant.
INTRODUCTION
Plaintiff Norine Sylvia Cave brings this action against defendant Delta Dental of California

5i 13
lo­ 14

{“Delta Dental”), asserting claims related to a “fraudulent” and unnecessary procedure her former

s .y

15

dentist provided to her. Cave argues that Delta Dental is at fault because it: (i) should never have

CO “

16

approved payment to die dentist for the procedure; (ii) failed to fully investigate her grievance and

ll o

P
s O

II"
DZ

fraud allegation (e.g.. investigate whether the claim (“Claim”) by her dentist should have been

18

approved and paid); and (iii) failed to provide her with all copies related to its approval of the

19

Claim and its investigation of her grievance. However, as explained below, there is no authority

20

under ERISA by which Cave can challenge Delta Dental’s decision to reimburse or otherwise pay

21

the Claim submitted by her dentist and no grounds to hold it liable to Cave regarding the

22

investigation of her grievance about the payment. There is authority for requiring Delta Dental to

23

provide Cave with copies of all records related to the handling of the Claim and investigation of

24

her grievance; as described below, it has done that.

25

While Cave is obviously upset about the procedure performed by her dentist, which she

26

asserts was unnecessary and resulted in pain and suffering, there is no viable claim Cave can assert

27

against Delta Dental with respect to those injuries. Therefore, its motion to dismiss is GRANTED

28

and this case is DISMISSED WITH PREJUDICE.

42 a

Case 3:l8-cv-01205-WHO Document 44 Filed 10/23/18 Page 2 of 11

1

BACKGROUND

2

On October 21,2013) Cave consulted with Dr. Stividha Sachdcva of Coast Dental of

3

Georgia for dental services. First Amended Complaint (“FAC”) U 22 (Dkt. No. 36). As a part of

4

that consultation, Cave received a comprehensive exam. Dr. Sachdcva recommended crown

5

replacements of allegedly fractured veneers on teeth #8 and #9, indicating that the teeth could no

6

longer support veneers due to decay. Id. Dr. Sachdeva based this recommendation on x-rays

7

taken at the consultat ion, which she used to mislead Cave concerning the condition of her veneers

8

as well as the condition of her teeth. Id.

9

t- -2
3 |

as
Ia
J's
O o

II

I

On January 1,2014, Cave obtained benefits through The Entertainment Industry Flex Plan

10

(“Flex Plan”), group number 07578-00001 (an ERISA plan). She returned to Dr. Sachdeva on

11

January 27,2014 for the procedure to replace the crowns on teeth #8 and #9 as recommended by

12

Dr. Sachdeva. Id. Dr. Sachdcva subsequently submitted a benefits Claim to Delta Dental for the

13

crowns. Id

14

Due to “great concern and realization of Dr, Sachdcva’s falsified diagnosis,” on April 30,

15

2014, Cave filed a grievance with Delta Dental, indicating that she suspected that Dr. Sachdeva

16

had committed fraud in “wrongfully and intentionally” recommending crown replacements. Id.

17

1 23. Specifically, upon review of Cave’s x-rays and documentation, other doctors suggested that

18

teeth M and #9 did not have the amount of decay that would require replacement of the veneers.

19

Id. Seemingly because of these alternate diagnosis, Dr. Sachdcva recanted that she detected the

20

decay through the x-rays, but rather that she had relied on visual means to detect decay. Id. But

21

Dr. Sachdeva could not provide any documentation to substantiate such visual means and did not

22

document such decay in her patient notes dated January 27,2014, merely noting that “patent wants

23

crowns.” Id. Cave believes that Dr. Sachdcva diagnosed otherwise in order to receive payment

24

for the unnecessary dental treatment. Id. H 24. She alleges that once she filed her grievance with

25

Delta Dental, it should have examined all records and x-rays to determine whether Cave actually

26

needed her veneers replaced, rather than simply approve the Claim by Dr. Sachdcva. Id. ‘j 11.

27
28

On May 28, 2014, Delta Dental responded to Cave’s grievance, infonning her that under
California Health and Safety Code section 1371.5, Delta Dental and Dr. Sachdcva arc responsible
2

43 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 3 of 11

.2

1

for their own acts or omissions and not liable for the acts and omissions of each other. Id. \ 25,

2

Ex. 102. It also advised Cave that “the diagnosis for crowns for [her] teeth numbers 8 and 9 woe

3

one of the appropriate treatments of choice due to Dr. Sachdeva’s documentation that the existing

4

veneers 8 and 9 were chipped.” Id., Ex. 102. It explained that it was “unable to confirm or deny

5

the acceptability of [] crown numbers 8 and 9” because Dr. Sachdeva did not submit x-rays of

6

diagnostic quality, meaning that Delta Dental’s dental consultant could not have determined

7

whether she needed new crowns prior to Dr. Sachdeva’s decision to replace her veneers. Id. Cave

8

alleges that “[tjhis admission clearly violates Delta’s required policy to evaluate and determine

9

every proposed treatment plan in the case of two or more crowns.” Id. 28. Specifically, she

10

contends that “Delta was required, by its own policies, to deny the proposed treatment plan

11

submitted by Dr. Sachdeva of Coast, based on insufficient x-rays as cited in their May 28,2014

12

response letter’’ Id. She asserts that a proper review of the x-rays should have resulted in Delta

Si
5§ 13

•H.2 5= 14
Q

|1
2q

15
16

IJ "
Z

Dental not paying the Claim because the x-rays did not reveal any condition that would justify
crown treatments. Id.\ 30.
After Delta Dental’s “erroneous support of Dr. Sachdeva’s treatment plan with its clear
discrepancies,” Cave requested copies of the treatment plan and x-rays submitted to Delta Dental
by Dr. Sachdeva for her review. Id. 31. Delta Dental denied the request, stating that California

18

Health and Safety Code section 1370 protects the documents that Cave requested from discovery.

19

Id. U 32, Ex. 103. It advised her that she could request copies of treatment notes from the dentist

20

directly under section 123110 of California’s Health and Safety Code, which requires a dentist to

21

provide copies of x-rays and records upon written request. Id., Ex. 103. It noted that Georgia,

22

where Cave resides, may have a similar law. Id.

23

On September 10,2014, Cave responded to Della Dental’s letter, providing it with ‘Viable

24

and sufficient” x-rays in addition to photographs of teeth #8 and #9, taken both before and after

25

the new crowns. Id. 36. According to Cave, these documents demonstrate that her healthy tooth

26

structure made Dr. Sachdeva’s crown placements unnecessary. Id. These documents were given

27

to Delta Dental by Cave to reveal and support her contention that Dr. Sachdeva committed fraud.

28

Id. It responded to this new information in a letter dated October 4,2014, standing by its prior
3

44 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 4 of 11

«

1

determination that it was Dr. Sachdeva’s responsibility—and not Delta Dental’s—to choose the

2

appropriate treatment plan and it presumed (hat Dr. Sachdeva had provided Cave with the risk and

3

benefits of the treatment. Id., Ex. 105.

4

On November 1,2016, Cave served Delta Dental with a request for “production of

5

documents to a non-party” in connection with litigation she had commenced against Dr. Sachdeva

6

in Fulton County, Georgia. Id. 41. This request included “AH records of insurance, including

7

policies and declarations, claims history and correspondence to and from providers submitting

8

claims or providers that have treated the insured from January 1,2010 through today, that in any

?

way represents dental treatment, or reimbursement for dental treatment [Cave].” Id. Delta Dental

10

objected to the request for production based on California Evidence Code section 1157 and Health

11

and Safety Code section 1370. Cave asserts that those sections do not apply and do not prevent

12

Delta from releasing the requested records, because her request was not made for a peer review

3! 13

board report, Id.\j 42.

.5 u
I’S

14

Q|

15

San Francisco. Delta Dental removed the case to this court on February 23,2018. It moved to

16

dismiss and in May 2018,1 granted its motion, finding that Cave’s cause of action for bad faith

11
So

-a
E
o o

On January 24, 2018, Cave filed this action in the Superior Court of California, County' of

li 17

was preempted by the Employee Retirement Income Security Act of 1974 (ERISA) and that she

18

could not bring a cause of action under the Health Insurance Portability' and Accountability Act of

19

1996 (HIPAA). May 2018 Order (Dkt. No. 29). I dismissed Cave’s initial causes of action with

20

prejudice, meaning that Cave cannot reassert them. But J did grant Cave leave to amend her

21

complaint to assert a breach of fiduciary duty claim under ERISA. Id. She filed the FAC and now

22

asserts four causes of action: (1) breach of fiduciary duty under ERISA, (2) breach of implied

23

covenant of good faith, (3) for penalties under section 502(c) of ERISA, and (4) “wrong

24

disbursement.” Delta Dental moved to dismiss, arguing that the causes of action Cave asserts and

25

the relief she seeks arc not viable given the limited remedies allowed under ERISA.

2

26

J held a hearing on Delta Dental’s motion on August 15,2018. At that hearing, I explained

27

my views that Cave’s allegations could not state actionable causes of action given ERISA’s

28

limited remedy provisions, with the exception that ERISA generally requires Delta Dental to
4

45 a

Case 3M8-CV-01205-WHO Document 44 Filed 10/23/18 Page 5 of 11

I

produce to Cave all material records it had regarding the processing of Dr. Sachdeva’s Claim and

2

Cave’s grievance. Therefore, ] directed the parties to meet and confer to identify what, if any

3

documents, Delta Dental had that were relevant to Cave’s grievance and had not been produced. I

4

then directed defense counsel to file a declaration identifying whether the parties continue to

5

disagree about records not provided and, if so, the documents Ms. Cave thinks arc missing. Dkt.

6

No. 41. Defense counsel filed that affidavit on August 22,2018. Pursuant to my direction, Cave

7

then filed a response regarding Delta’s original and supplemental production of documents on

8

August 29,2018. Dkt. Nos. 42,43. i
LEGAL STANDARD

9

t.2

S E

10

Under Federal Rule of Civil Procedure 12(b)(6), a district court must dismiss a complaint

11

if it fails to state a claim upon which relief can be granted. To survive a Rule 12(b)(6) motion to

12

dismiss, the plaintiff must allege “enough facts to state a claim to relief that is plausible on its

31 13
fg i*
Jo

face.” See Bell All. Corp. v. Twombly, 550 U.S. 544, 570 (2007). A claim is facially plausible

° O

15

defendant is liable for lire misconduct alleged.” See Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)

16

(citation omitted). There must be “more than a sheer possibility that a defendant has acted

II
SO

when the plaintiff pleads facts that “allow the court to draw the reasonable inference that the

ll 17

unlawfully,” Id. While courts do not require “heightened fact pleading of specifics,” a plaintiff

18

must allege facts sufficient to “raise a right to relief above the speculative level.” See Twombly,

19

550 U.S. at 555,570.

20

In deciding whether the plaintiff has stated a claim upon which relief can be granted, the

21

Court accepts the plaintiffs allegations as true and draws all reasonable inferences in favor of the

22

plaintiff. See Usher v. City ofLos Angeles, 828 F.2d 556, 561 (9th Cir. 1987). However, the court

23

is not required to accept as true “allegations that are merely conclusory, unwarranted deductions of

24

25
26
27
28

1 By doing so, 1 gave the parties notice that I would be considering materials outside of the
pleadings and gave them a sufficient opportunity to submit evidence on this narrow issue. That
process essentially converted this narrow claim -whether Delta provided Cave all relevant
documents in its possession regarding Cave’s claim — into one to be determined under Rule 56.
See, e.g., In re Rothery, 143 F.3d 546, 549 (9th Cir. 1998). Both sides have been “fairly
appraised” by my requesting evidence outside the pleadings and the parties’ submission of those
materials. Id.
5

46 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 6 of 11

1

fact, or unreasonable inferences.” See In re Gilead Scis. Sec. litig., 536 F.3d 1049, 1055 (9th Cir.

2

2008).

3

Pro sc pleadings must be held to a less stringent standard than those drafted by lawyers.

4

Haines v. Kemer, 404 U.S. 519, 520-21 (1972). Nevertheless, a complaint, or portion thereof,

5

should be dismissed if it fails to set forth “enough facts to stale a claim to relief that is plausible on

6

its face.” Twombly, 550 U.S. at 554. “[A] district court should not dismiss a pro se complaint

7

without leave to amend unless it is absolutely clear that the deficiencies of the complaint could not

8

be cured by amendment." Akhlar v. Mesa, 698 F.3d 1202, 1212 (9th Cir. 2012) (quotations

9

omitted).
DISCUSSION

10

11

% -2£

12

Si 13
I?
i<
.1 o

I.

BREACH OF FIDUCIARY DUTY
In the FAC, Cave alleges that Delta Dental breached its fiduciary duty under ERISA in the

following ways: (1) by not verifying the authenticity' of the x-rays submitted by Dr. Sachdeva
prior to disbursement of plan benefits; (2) by not properly adhering to its own guidelines “put in

° I >5

place to comply with ERJSA guidelines requiring it to act in the best interests of it participants”;

16

(3) by failing to thoroughly investigate her allegation of fraud by Dr. Sachdeva; (4) by willfully

17

withholding her protected health information (“PHI”) and other information regarding its

18

investigation of Dr. Sachdeva’s Claim and Cave’s grievance; and (5) by wrongfully disbursing

19

funds to Dr. Sachdeva for the procedure. FAC ^ 44-46,49-50,52-53. Cave seeks relief under

20

sections 502(a)(2), 502(a)(3), and 502(c) of ERISA. See id.

21

terms of relief, Cave seeks the “restoration” .of the money back to Delta Dental that it paid Dr.

22

Sachdeva for the procedure, an order compelling it to provide Cave with her “full medical

23

records,” penalties for the failure to produce the records, and punitive damages due to its failure to

24

follow its own protocols in paying claims and investigating fraud, as well for its refusal for

25

provide Cave her medical records. Id. ^ 56-59.

I2I

q

i!M
IIZ

16-17,20, 38, 44-45, 51-53, 55. In

26

A.

27

Section 502(a)(2) allows the Secretary of Labor, participants, beneficiaries, and fiduciaries

28

Section 502(a)(2)

to bring suit for breaches of fiduciary duty. 29 U.S.C. § 1132(a)(2). The purpose of Section
6

47 a

Case 3:18-CV'01205-WHO Document 44 Filed 10/23/18 Page 7 of 11

1

502{aX2) is to “give] ] a remedy for injuries to the ERISA plan as a whole... not for injuries

2

suffered by individual participants as a result of a fiduciary breach." IVise v». Verizon Commc'ns

3

Inc., 600 F.3d 1180,1189 (9th Cir.20I0). After considering both the statutory' language in ERISA

4

and its legislative history, the Supreme Court concluded that ERISA’s “draftsmen were primarily

5

concerned with the possible misuse of plan assets, and with remedies that would protect the entire

6

plan, rather than with the rights of an individual beneficiary.” Mass. Mul. Life Ins. Co. t>. Russell,

7

473 U.S. 134,141 (1985). The Court noted that “the crucible of congressional concern was

8

misuse and mismanagement of plan assets by plan administrators” and that “the common interest

9

shared by all four classes [who may bring suit under Section 502(a)(2)] is in the financial integrity

10

of the plan.” Id. at )40n. 8,14] n. 9. Therefore, to state a claim for fiduciary'breach under

11

Section 502(a)(2), a plaintiff “must allege that the fiduciary injured the benefit plan or otherwise

12

jeopardized the entire plan or put at risk plan assets.” IVise, 600 F.3d at 1189.

I £

SI 13

In her opposition, Cave asserts that “individual participants in defined contribution plans

If “

may recover losses incurred in their own accounts." However, while a participant in a defined

So

value of plan assets in a participant’s individual account,” see LaRue v. DeWolff, Boberg&

p ,s
1!n
D£

16

contribution plan may bring a section 502(a)(2) action for “fiduciary' breaches that impair the

Associates, Inc., 552 U.S. 248 (2008), there is no evidence that the Plan at issue2 is a defined

18

contribution plan (e.g., a defined contribution pension plan) or that Delta Dental’s action in •

19

impermissibly paying a claim has impaired the value of the Plan’s assets. See 29 U.S.C.

20

§ 1002(34) (“The term “individual account plan” or “defined contribution plan” means a pension

21

plan which provides for an individual account for each participant and for benefits based solely

22

upon the amount contributed to the participant’s account”).

23

Moreover, as explained in Wise, in order to state a claim under this provision, Cave must

24

allege facts showing that claims other than her own were mishandled. Cave has not. Given the

25

narrow focus of her allegations, she cannot do so. Wise, 600 F,3d at 1189.

26

Cave has not stated and cannot state a claim under 502(a)(2).

27
28

2 The Entertainment Industry Flex Plan.
7

48 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 8 of 11

«

I £

1

B.

2

Under section 502(a)(3), a participant or beneficiary may bring a civil action “(A) to enjoin

Section 502(a)(3)

3

any act or practice which violates any provision of this subebapter or the terms of the plan, or (B)

4

to obtain other appropriate equitable relief (i) to redress such violations or (ii) to enforce any

5

provisions of this subchapter or the terms of the plan.” 29 U.S.C.A. § 1132(a)(3). The Supreme

6

Court has construed “appropriate equitable relief to mean the categories of relief that were

7

typically available in equity courts before the merger of law and equity. CIGNA Corp. v. Amara,

8

563 U.S. 421,438(2011).

9

Remedies that arc appropriate under section 502(a)(3) include injunctive relief,

10

reformation of a plan, estoppel, or an “equitable surcharge.” CIGNA Corp, 563 U.S. at 440. In

II

contrast, the remedies of the sort Cave seeks here, including forcing Delta Dental to “take back”

12

the funds it paid to Dr. Sachdeva and punitive damages, are not forms of equitable relief allowed

a | 13
is 14

under this section. See, e.g., Grcat-IV. Life & Annuity Ins. Co. r. Knudson, 534 U.S. 204,218

Q O

15

does not allow remedies for compensatory or punitive damages).3

16

11.

1o

ii
2 o

1 1 17
D 5?

18

(2002); see also Massachusetts Mut. Life Ins. Co. v. Russell, 473 U.S. 134,144 (1985) (502(a)(3)

FAILURE TO PRODUCE RECORDS AND REQUSET FOR PENALTIES UNDER
SECTION 502(C)
The failure to provide plan documents to a plan participant can be an actionable breach of

fiduciary duty. See, e.g., Cuhrona v. Nationwide Life Ins. Co., 748 F.3d 698,706-4)7 (6th Cir.
19
20

2014); 29 U.S.C. § 1024(b)(4). The documents required to be produced under this section are
documents regarding the plan, maintained by the plan administrator. See id. at 7064)7 (The

21
documents that, “a plan administrator” must furnish to a participant or beneficiary include the plan,
22
the summary plan description, annual or terminal reports, applicable bargaining or trust
23
24

agreements or other instruments under which the plan is operated).
The documents sought by Cave were not relevant to the creation or operation of the Plan

25
under which she was insured; instead, she sought documents regarding the approval of Dr.
26
27
28

3 Cave does not plead, and on the facts alleged cannot plead, that Delta owes her unpaid benefits
under the Plan pursuant to 502(a)(1).
8

49 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 9 of 11

.2

1

Sachdeva’s Claim and grievance investigation by Delta Dental. For this reason, Cave’s request for

2

penalties for failure to produce requested records fails. See 29 U.S.C. § 1132(c)(1)(B); 29 C.F.R.

3

§ 2575.502o-l (increasing statutory damages from SI 00 to Si 10 a day); see also Lee v. ING

4

Groep. N. V., 829 F.3d 1158, 1162 (9th Cir. 2016) (“Penalties under 29 U.S.C. § 1132(cXl) can

5

only be assessed against ‘plan administrators’ for failing to produce documents (hat they are

6

required to produce as plan administrators. 29 C.F.R. § 2560.503-1 (hX2)(iii) does not impose any

7

requirements on plan administrators, and so cannot form the basis for a penalty under 29 U.S.C. §

8

1132(c)(1)/*).

9

Even though Cave cannot seek penalties against Delta Dental under Section 502(c), under

10

29 C.F.R. § 2560.503—1 (h)(2)(iii), it was arguably required to provide Cave documents regarding

11

its approval of Dr. Sachdeva’s Claim and in vestigation of her grievance, See 29 C.F.R, §

12

2560.503-1 (h)(2)(ii!) & (m)(8)4 Assuming that this is a viable cause of action, the record shows

ll
13
I* 14
° .5

f2Iq

15

16

that Delta Dental has, albeit belatedly, complied with Cave’s request for the material records
regarding Dr. Sachdeva’s Claim and her grievance.1
In the affidavit submitted by Delta Dental following the hearing on the motion to dismiss,
it attests that it has provided all records regarding Dr. Sachdeva’s Claim and Cave’s grievance,

ll 17
31Z 18

making its most recent production on August 22,2018. Dkt. No. 42. In Cave’s response and in

19

missing from Delta Dental’s most recent production. However, those documents were either in

20

Cave’s possession already (as having been sent by her to Delta Dental or to her dentist, or were

further correspondence submitted to the court, she identified records that she believes were

21
22
23
24

25
26
27

28

4 (h)(2Xiii) provides that “the claims procedures of a plan will not be deemed to provide a
claimant with a reasonable opportunity for a full and fair review” unless the claims procedure
provide that “a claimant shall be provided, upon request and free of charge, reasonable access to,
and copies of, all documents, records, and other information relevant to the claimant’s claim for
benefits.” (m)(8) provides that documents which are “relevant” under (h)(2Xiii) include those: (i)
relied upon in making the benefit determination; (ii) submitted, considered, or generated in the
course of making the benefit determination, without regard to whether such document, record, or
other information was relied upon in making the benefit determination; and (iii) demonstrate
compliance with the administrative processes and safeguards required pursuant to paragraph (b)(5)
of this section in making the benefit determination.
3 As noted, the parties were put on notice that I would be considering evidence outside of the
pleadings, thereby converting the motion on this narrow issue into one under Rule 56.
9

50 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 10 of 11

1

produced by Delta Dental in 2016) or do not exist or are otherwise not in Delta Dental’s

2

possession (e.g., diagnostic quality x-rays from Dr. Sachdeva, clinical notes used by Delta

3

Dental’s consultants to approve the Claim or evaluate her grievance). Dkl. No. 43.6

4

Therefore, even if Delta Dental was in violation of ERISA’s requirements when it failed to

5

initially provide Cave all of the documents relevant to the Claim and her grievance, it has

6

corrected that omission. As a result, no injunctive relief is appropriate. As noted above, punitive

7

or other damages are not available remedies under ERISA.

8
9

«

II
V£

OTHER CLAIMS
As Cave acknowledges in her Opposition, in my prior Order I gave her leave to amend for

11

the limited purposes of pleading claims under ERISA. Oppo. at 5. To the extent she continues to

12

allege claims based on non-ERISA theories (e.g., breach of good faith and fair dealing and
“wrongful disbursement”), those claims cannot be stated for the reasons described in my prior
Order. Dkt.No. 29.

15

II..

II17
2

ni,

10

15 14
° |

Therefore, Cave’s claims under ERISA are dismissed WITH PREJUDICE.7

18

19
20
21
22
23
24
25
26
27
28

6 In her response to Delta Dental’s affidavit, Cave complains that the records produced show that
it violated its own policies by approving Dr. Sachdeva’s Claim to perform the work on Cave
without possession of diagnostic quality x-rays. She also complains that, even considering theinferior x-ray copies, it should have seen that the work contemplated and then performed by Dr.
Sachdeva was not appropriate and should not have been approved or paid. In addition, in
correspondence submitted to the court by Cave following the filing of Delta Dental’s affidavit and
Cave’s response, Cave again complains that Delta Dental has not produced documents
“substantiating” the basis of why it approved payment to Dr. Sachdeva for the procedure. Because
Cave is proceeding pro se, I will consider her September 13, 2018 and September 17, 2018 emails
and have them filed in the docket. However, those emails confirm that her main complaint is
Delta Dental’s improper approval of Dr. Sachdeva’s Claim for reimbursement for the procedure
performed on Cave, either because it did not have in its possession diagnostic quality x-rays or
because it did not properly review the x-rays it had and improperly approved the procedure. As
described in my prior and current Orders, those claims arc not cognizable under ERISA as a
violation of Delta Dental’s fiduciary duty to Cave.
7 In addition, given the dismissal of her remaining claims, I need not consider whether Cave’s
fiduciary duty claims are barred by the applicable statute of limitations, 1 note that if she could
assert a breach of fiduciary duty claim, under 29 U.S.C. § 1113(2), that claim should have been
filed within three years after the earliest date on which the plaintiff had actual knowledge of the
breach. Cave knew of the existence of Delta Dental’s purported liability - failure to produce
documents and failure to follow its own policies regarding what claims would be approved and
how- back in 2014, more than three years prior to the date she filed her lawsuit That additional
documents were produced in 2016 that she believes confirm her theory' that Delta Dental failed to
follow its own policies docs not alter that it knew of the existence of her claim back in 2014.

10

51 a

Case 3:18-cv-01205-WHO Document 44 Filed 10/23/18 Page 11 of 11

1

CONCLUSION

2

Cave’s FAC is DISMISSED WITH PREJUDICE.

3

IT IS SO ORDERED.

4

Dated: October 23,2018

5
6

Wiliam H, Orrick
United States District Judge

7
8

9
10
11

«

12

if
13
i* 14
o ,H

15

II 16
^ £

II& 17
Z

18

19
20
21
22
23
24

25
26
27
28

11

52 a

Appellants Correspondence To The Court Concerning Possible Conflict
of Interest: Attention Clerk Of Court
or £*)

Case: 18-17134,09/24/2019, ID: 11440961, DktEntry: 21-1, Page 1 of 21

No. 18-17134
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Norine Cave,
Plaintiff-Appellant,
v.
Delta Dental of California
Defendant-Appellee
On Appeal from the United States District Court for the Northern District of
California
Civil Case No. 3:18-cv-01205 WHO Honorable William H. Orrick
APPELLANT’S CORRESPONDENCE TO THE COURT CONCERNING
POSSIBLE CONFLICT OF INTEREST: ATTENTION CLERK OF COURT

Attorneys for Defendant-Appellee
DENNIS G. ROLSTAD (SBN 150006)
droIstad@hinshawlaw.com
BRIAN S. WHITTEMORE (SBN 241631)
Bwhittemore@hinshawlaw.com
PHILIP BARILOVITS (SBN 199944)
pbarilovits@hinshawlaw.com
HINSHAW & CULBERTSON LLP
One California Street 18th Floor
San Francisco, CA 94111
Delta Dental of California

2a

{Z 01 ZZ)

Case: 18-17134, 09/24/2019, ID: 11440961, DktEntry: 21-1 . Page 2 of 21

Comes now Appellant, Norine Cave, in the above captioned action and
respectfully requests the Court to review and consider the following Pursuant to 28
U,S. Code § 455, as to a possible conflict of interest in the above captioned
appealed action 3:18-cv-01205 WHO.
1.
Information indicating possible conflict of interest has recently been
discovered by Appellant, subsequent to the summary'judgement via Rule 56 and
subsequent to the Appellant’s above captioned appeal.
2.

Appellant has recently discovered that attorney Angela Han was a judicial
extern for the Honorable William H. Orrick, from January 2016 - May 2016, and
is currently employed by Hinshaw & Culbertson LLP, San Francisco. Defendant,
Delta Dental of California, is represented in the above captioned civil action by the
same law firm, Hinshaw & Culbertson LLP by attorneys Dennis Rolstad, and
Brian S. Whittemore. Plaintiff cites THE FOLLOWING:
a. Hinshaw & Culbertson website listing San Francisco staff attorneys:
https://www.hinshawlaw.com/professionals.html?do_item_search=true&office=4
b. Hinshaw and Culbertson website background of Associate, Angela Han:
https://www.hinshawlaw.com/professionals-Angela-Han.html
c. Angela Han Linked in Biographical information:
1

3a

*3 or £1)

Case: 18-17134, 09/24/2019, ID: 11440961, DktEntiy: 21-1, Page 3 of 21

https://wwwlinkedin.com/in/angela-han- ] b4b42104
d. Company background of Orrick, Herrington and Sutcliffe LLP at
encyclopedia.com:
https://wwwencyclopediacom/books/politics-and-businessmagazines/orrick-herrington-and-sutcliffe-llp
3.

Appellant has also recently learned that the law firm of Orrick,
Herrington & Sutcliffe represented Delta Dental of California in a class action suit,
CGC-14-538849 which was initiated April 22,2014 and has settled and held
subsequent hearings in term of its settlement/distribution disbursements as recently
as of August of 2019, that is known to Appellant The law firm bears the
Honorable William H. Orrick’s family name, dating back to 1910, as cited by
encyclopedia.com, https://www.encyclopedia.com/books/politics-and-businessmagazines/orrick-herrington-and-sutcliffe-llp The referenced class action lawsuit
(Superior Court of California San Francisco CGC-14-538849) was ongoing and
concurrent (litigation and resolution) with Appellant’s complaint against Delta
Dental of California in district court (3:18-cv-01205 WHO) that was initiated in
early 2018
4.

2

4a

(4 OT '££)

Case: 18-17134, 09/24/2019, ID: 11440961, DktEntry: 21-1, Page 4 of 21

Due to the above-mentioned affiliations, Appellant has genuine concerns
and seeks to bring about an awareness of the possible issues related to the case
currently on appeal with this Court.

In interest of fairness, impartiality and equity, Appellant humbly requests
that this Court evaluate and consider the substance of the factors involved with
respect to the Order [Summary Judgement, Rule 56] rendered on October 23,2018,
and subsequently appealed on or about November 2,20 3 8 by Appellant.
The aforementioned citations are included following this correspondence.
Respectfully submitted this 23rd day of September 2019

/&/ Norine Cave
Norine Cave
Norine Cave Pro Se

3

5a

i9

is 01 ££)
9/17/2019

Case: 18-17134,09/24/2019, !D: 114469fclk,OfetEntry: 21-1. Page 5 of 21

BllHINSHAW
PROFESSIONALS

♦ Office: San Francisco

David A. Astengo
Associate
San Francisco, CA
415-362-6000

Thomas R. Beer
Partner
San Francisco, CA
415-743-3709

William A. Bogdan
Partner
San Francisco, CA
415-263-8127

Forrest Booth
Partner
San Francisco, CA
415-362-6000
https^/www.hmshaw1ew^om^professionate-htm!?doJtein„$e&rdv=tfue&bHtoe=4

6a

• 1/7'

Itsorzzj
9/17/2019

a

Case: 18-17134,09/24/2019,10; 1144S9&lipBkiEntry: 21-1, Page 6 of 21

Eugene Brown Jr.
Partner
San Francisco, CA
415-263-8112

f
Cassidy E. Chivers
Partner
San Francisco, CA
415-362-6000

David Ian Dalby
Partner
San Francisco, CA
415-263-8111

,|i

r

Ellen K. Demson
Associate
San Francisco, CA
415-263-8105

|

Susan F. Dent
Associate
San Francisco, CA
415-362-6000

httpsJAf/vw»1,hmsKftw1&w^om^rofBSsiona!s.htmt?doJteni-sB&rcb=taie&officB=4

7a

2/7

(/ OT Z2J
#17/2019

Case: 18-17134,09/24/2019, ID: 1144fi864ipBMEntry: 21-1,.Page 7 of 21

Edward F. Donohue III
Partner
San Francisco, CA
415-362-6000

i

Alena A. Eckhardt
Associate
San Francisco, CA
415-362-6000

Peter J. Felsenfeld
Partner
San Francisco, CA
415-743-3724

Greg Gruzman
Associate
San Francisco, CA

415-362-6000

Angela Han
Associate
San Francisco, CA
415-743-3706

Mtps;//www,hrfish8wlaw.com/pro1esstohals.htffil?doJteirt_searelM«je&olte*4

8a

.3/7

IB or
«17/2019

Case: 18-17134,09/24/2019, ID: 114469&tiPDktEn!ry: 21-1, Page 8 of 21

Peter L. Isola
Partner
San Francisco, CA
415-393-0135

Erik M. Kowalewsky
Partner
San Francisco, CA
415-362-6000

Robert G. Levy
Of Counsel
San Francisco, CA
415-743-3704

Dennis N. Lueck Jr.
Partner
San Francisco, CA
New York, NY
415-362-6000

Michael D. McConathy
Of Counsel
San Francisco, CA
415-263-6136

htipsVA*ww.hfnsh&wJ&w.com/pro{essionRts.htTn5?dc>Jtem_seafch=ifue&cfftce=4

9a

Af7

(y or iZ)
W17/2019

Case: 18-17134,09/24/2019, ID: 1144&9&M3fctEnity: 21-1, Page 9 of 21

Amee A. Mikacich
Partner
San Francisco, CA
415-743-3705

i

Leila Morshed Mohseni
Associate
San Francisco, CA
415-362-6000

Renee Choy Ohlendorf
Partner
San Francisco, CA
415-362-6000

Bradley H. Pace
Associate
San Francisco, CA
415-263-8136

John (Jack) S. Pierce
Partner
San Francisco, CA
415-743-3702

hnpst//wwAi,hrnshawlew.isomfpr<>fe6siona!s.Htiri!?doJiem^seafch=tfue&6ifn:e6i!4 ,

10 a

6/7

;io atzzj
9/17/2019

Case: 18-17134, 09/24/2019, ID: 1144®9&l$iJ3WEntfy; 21-1, Page 10 of 21

Maria S. Quintero
Partner
San Francisco, CA
415-362-6000

Dennis G. Rolstad
Partner
San Francisco, CA
415-263-8156

Robert J. Romero
Partner
San Francisco, CA
415-263-8119

Pamela L. Schultz
Partner
San Francisco, CA
415-263-8132

Joanna L. Storey
Associate
San Francisco, CA
415-362-6000

WtpsJAvwyk’,hmsKMvl&w.com/profe&sidnals,Htflfit?doJtBm„scarcb=tfye&ctfice=4.

11 a

6/7

pi 0! ZZ)
9/17/2019

Case: 18-17134, 09/24/2019, ID: 1144&9&1,i<B&Entry: 21-1, Page 11 of 21

Jonathan W. Thames
Partner
San Francisco, CA
415-362-6000

Radhlka Thanedar
Associate
San Francisco, CA
415-362-6000

mm
Travis Wall
Partner
San Francisco, CA
415-743-3738

/
Brian S. Whittemore
Associate
San Francisco, CA
415-362-6000

Bradley M. Zamczyk
Partner
San Francisco, CA
415-362-6000
© 2019 Hinstiaw & Culbertson 1LP
http*://wWw.hinShfiwi&w.€offi/prafe&sidnat$.htm??d0jtem.,se&reH=tfue&CifftCBi4

12 a

IF?

THIS PAGE INTENTIONALLY LEFT BLANK
PAGE 13a

13 a

THIS PAGE INTENTIONALLY LEFT BLANK
PAGE 14a

14 a

THIS PAGE INTENTIONALLY LEFT BLANK
PAGE 15a

15a

•SKSSSis’ '

Case: 1S-f7/i34t .&&&&$

'TOM

iRagel^f 21

03 a.s«^

.

Ri'sr.iiurti Tfe'e.
m #■■# o m:. .Trylor-I.WoVifei

Hinshw*ci.lberK<K(U,P
•«.$224;UriW6(s;

-X

;
3

!

's.

: YbOr'^pnnectloflrcih row sce;y6ur;&ct!ve' '1
' status by default, tou cart also ie* wtio is;
;
j inline orroacHable.loarri more

f

Manage settings

Got it'

messaging

m

:hHpe^/v^jinkedin;^m/miai^piih-:ib4b42i04i

16 a

(Its 01 ££)
«/ie/20ie

Case: 18-17134, 09/24/204,^ ^(M4Q96i3iiffDW5BtQSW^.9tBage 16 of 21

ENCYCLopedia*com

ftflpOri AtMjrtiMmprT!

Orrick, Herrington And Sutcliffe LLP
Inttrtvite™/ D«morv(it CaHVnv Histories
COPYRIGHT 20>S7horo«PG3t3

Orrick, Herrington and Sutcliffe LLP
405 Howard Street
San Francisco (/places/united-states-and-canada/us-oolitieal-geographv/san-francisco). California (/piaces/united-statesU.S.A.

Telephone: (415) 773-5700
Fax: (415)773.5759

Web site: http://www.orrick.com
Private Contpany
founded: 1885 as Jarboe, Harrison & Goodfeilow

Employees: 800
Sates: $448 million (2003)
NAIC: 541110 Offices of Lawyers
Christmas Business Gifts- Christinas Business Gifts
Find Christmas Business Gifts Results at Tcomajus
teoma.us/Chrktmas Business Glfts/tnformatton 1 Sponsored T
ftittns://wwwbinejemi/ad}d;?td»e3IHK4KcdrTSCMIXUCf»RlOfKV>jahvkft»PLihDdh87vH6x3eoFoUfOaKWUOMjYFUiA3f.YDu6Up
9XutmSGZ8AVel6WwamfWX6hlNvC2wTxPiaeGGSKU£aQoPMWrriIO288fdpVgXAStZwfHbok2c5JtE92aLcvtfOndm54)cnVvPd0 5o7UXt2P&u=aHR0cHMIM2

A long-time Sari Francisco (/places/united-states-and-canada/us-bolitical-eeoeraohv/san-francisco) lav/firm known for its work
in municipal bonds, Orrick, Herrington and Sutcliffe LLP has grown aggressively since the early 1990s, adding a variety of
practices and opening offices around the world,Thefirm employs some 750 lawyers in 13 practice areas. Transactional
practices include Bankruptcy and Debt Restructuring, Compensation and Benefits. Cor porate Global Finance, Mergers and
Acquisitions, Public Finance, Structured Finance. Real Estate, and Tax. Litigation practices include Litigation. Intellectual
Property. Employment Law, and Securities Litigation. Clients include the likes of Salomon Smith Barney, Charles Schwab, and
IBM. In addition to its San Francisco (/places/united-states-and-canada/us-political-geoeraohv/san-franrisco) headquarters.
Orrick maintains domest ic offices in New York t/olaces/united-states-and-canaria/us-nolitir-al-geoaranhy/ngw-vorkl (largest in
size). Los Angeles (/places/united-states-and-canada/us-oolitical-EeograDhv/los-aneeles). Orange County, Sacramento
■i/olaces/united-states-and-canada/us-political-geographv/sacramentol. Silicon Valley f/olaces/united-states-andi-v:
Wo use cookies to personalise content end ads. to provide social media features and to
anal)rse our traffic. We also share Information about your uso of our site with our social media.

HttpsVMww.encyclc^a.dia.oorn/books/polKicikend-bu$iness>n,id§azinasforr1ek-hafringfon-ai>d-6utciiffe-(lp

17 a

> Cookie Setilngt

•J Accopi Codfctcs

1/9

(1 / 0! ZZ)

9/1800)9

Case: 18-17134, 09/24/284,9, ^n^(UAQ363ii/(Dkt5BiEie«2WpcPage 17 of 21

indeDendent-states-and-baltir.-natinns/ris-anri-baltic-noliticai-Beogranhv/mosrawj Hone Kongf/places/asia/chinese-politicalgeography/hong-kong). Taipei (/places/asia/taiwan-political-geographv/faipei). and Tokyo (/places/asia/japanesc-politicalgeography/tokvo). Hie driving force behind the firm's expansion is chief executive officer Ralph H. Baxter. Jr., who took the
hetnn in 1990.
Firm Origins Date to 1860s
Orrick t races its lineage to attorney John R. Jarboe. Jr. He was born in 1836 In Maryland 1/places/united-states-and-canada/uspolitical-geoeraphy/marvland) of French descent (his family had accompanied Lord Baltimore when he founded the city that,
bore his name) and spoke French as his native tongue. Injured as a child, he was confined to bed for three years and became
quite studious. Although the youngest member of his class at Vale University (/social-sciences-and-law/education/collegesstudy law in the San Francisco office of Jesse B. Hart at a time when there were no law schools and attorneys "read" with those
already established in the profession. In 1858 he became a clerk at Shattuck, Spencer & Reichert and in that same year was
admitted to the bar and soon became a practicing attorney. According to company lore his examiners were so impressed by his
knowledge of the law they dropped the subject and asked if the young man knew how to makea brandy punch. He replied that
he did not. but confided that he had discovered an excellent one was served at a saloon across the street, adding. "And I would
be pleased if the learned committee would join me in test ing one." The attorneys quickly agreed upon a change of venue.
Best Slock Reports - Best Stotts To Buy Now - Clean Spark Inc
Thinking about investing? You won't want to miss this! Discover CLSK for a potentially high RQI on a low investmertf. Click to lenm more.

{https ://wy>rw.binejCom/adlck?ldce3tA/heN 92vUcvMAyrPkfW91VUCUv7NuEnUTolkfMlXxfiFrohxN-2W)cQNSzcNH3ZvObPEKJCn462kLWU tri3AQDQf!77lIXn4vp>Sfl6PI4?7MmHM3kRTruQARNBtpM O5l3V7hFdririJof>qX7nAp&71Piifft/i<NwtVVid07VfPVh:lnUriph&u«aHftft^MiM2£lMmVIMm2i2XNte3ftvY2tv2XBvcnRrLmNvbSUvZmNsc2rtaW51JTJm&rtid=2a89Aaldl221ib979340379gfef0c7eS7)

Ropct AtMtrtMirwnl

Upon Reichert's death, the firm became Spencer & Jarboe. and following Spencer's death Jarboe practiced on his own for.
about-eight months, his specialty real estate, before taking on partners. He became partners with Ralph C, Harrison in 1867,
and they worked together until Harrison was elected to the Supreme Bench of the State. W.S. Goodfellow would join them, and
in 1885 they founded Jarboe. Harrison & Goodfellow. the firm that Orrick considered its forefather. In 1891 Harrison was
elected a justice to the California Supreme Court, and the partnership was dissolved. Two years later, jarboe. a Ways of poor
health, died at the age of 57.
William Orrick Joins Firm in Early1900s
Goodfellow carried on the firm's tradition, and In 1901 formed a new partnership with Charles Eells, who would play an
important role following the 1906 earthquake that leveled San Francisco. Eells helped to save Fireman's Fund Insurance
Company by implementing a reorganization plan that allowed the insurer to pay off some of its claims with company stock. The
behind the Orrick name. William H. Orrick, joined the firm in 3930. the beginning of a 50-year tenure that would last until he
was well into his 80s. Another attorney, Stanley Moore, joined the firm in 3.914. and in that year the partnership changed its
. •».

».

t

We use cookies to personalise content and ads. to provide social media features and to
analyse out traffic. We also share information about your use of our site with our social media.

https^/vAWi'.encyclopedia.oom.'books/poIrttcs-and-business-friaga&riesi'oTTiiA-herrmgfori-flnd-sutdiffe-llp

18 a

> Cookie Settings

2/9

(i a or ii)
9/18/2019

Case: 18-17134, 09/24/20,1,a ©J4(l4AQ9&3wOk^BtsyEM^.«cRage 18 of 21

The Herrington in Orrick. Herrington and Sutcliffe LLP was George Herrington who became a partner in 1927 and joined the
firm under unusual circumstance. Orrick was well known for his insistence on thoroughly researching his subjects, notorious
• for the prodigious assignments he gave to associates, but he also demanded as much effort from himself. While Herrington
Studied law at the University of California (/soriai-sciences-and-law/educatlon/cnlleees-iis/iiniversitv-califomial. Berkeley's
School of Law—Boalt Hall, he worked part-time 3t the library, charged with opening it on Sunday mornings. One more than one
occasion he found Orrick sitting on the steps waiting to get in. Years later Orrick would quip that he only hired Herrington to
make sure he showed up to work on time.

Report Adfeftbemeni

Five years after Herrington, Eric Sutcliffe joined the firm in 1932. During this period the firm became involved in one of the
most high profile bond issues in its history; the building of the Golden Gate (/places/united-states-and-canada/us-physicalgeograohv/eolden-eate) Bridge. While Sutcliffe contributed to the effort by providing research, Herrington played a key part in
making sure the bridge was built. The Golden Gate f/Dlares/united-states-and-canada/cis-nhvsical-pengraDhv/eolden-gatel
Ferry Company, backed by the deep pockets of its corporate parent, the Southern Pacific Railroad, fought against the bridge
project which threatened to undercut its business and challenged the bond Issue. When it ultimately passed, Herrington's
reputation was established and the firm became a major West Coast lawfirm.
Sutcliffe would play a more prominent role in the future, however. In 1947 hebecame the firm's managing partner, the start of a
30-year tenure at the top. The modern era of the firm, which after a regular shuffle of partners settled on its present name in
1980. began after Sutcliffe's retirement At; the time, Orrick was aquiet. conservative law firm, content to stick to its knitting in
San Francisco.
Orrick did not open its second office until 1983 when it set up shop in Sacramento. Anew chairman. William McKee, appointed
a year later had more ambitious goals. He had been with t he firm since 1950 and was responsible for launching Orrick's tax
practice. During his term as chairman from 1984 to 1986, McKee oversaw the upgrading of the firm's time-keeping methods
and merit-based compensation, and modernized the business practices. He also opened the firm's first non-California office,
establishing an important beachhead in New York (/otar.es/uniled-states-and-canad3/us-r>nlifical-eeoeraohv/new-vorkl Cltv.
Taking advantage of its reputation in California municipal bonds, Orrick was able to recruit half-a-dozen lawyers from a major
New York (/places/united-states-and-canada/us-political-geography/new-yorkf lawfirm. BrownS Wood. While Orrick looked
to make Inroads with New York financial companies, other major San Francisco lawfirms were building up their Silicon Valiev
(/□laces/unitcd-states-and-canada/miscellaneous-us-geography/silicon-vallev) offices to attract more business from the hightechnology sector. Orrick opted to stay out of Silicon Valley.a questionable move at the time, and instead opened an office In
mi

Ropfel AitarrtifttmGfi:

Orrick's prospects in the New York market appeared dim after the passage of the 1986 Tax Reform Act f/social-sciences-andWo use cookies lo personalise content and ads. to provide social media features and to
analyse our traffic. We also share Information at>out your use of our site with our social media.

htt^yvww.encydopedte.ootftfoooksfpolriScs-and-business^riagazHiestoTTick-hemrtgtori-aftd’auteliffe-Ilp

19a

> COOkic Sittings

«/ AcOOpt Cookie?

3/9

(lb 01 HZ)
«/ia/2oi9

Case: 18-17134, O9/24/204a<©;4lW4Q^3ijrCUct5B^^.wBage 19 of 21

interest rates that scared off many insurance companies. Small firms exited the bond business, larger firms cut back, and Orrick
was close to shuttering its New York office. Instead, it decided to expand, diversify the practice and also beef up its public
finance practice. A key move came in July 1987 when Orrick lured away nine bond specialists from Hawkins Delafield. bringing
with them some major clients, including New York City's Municipal Assistance Corp. and the Port Authority of New York and
New Jersey (/Dlaces/united-states-and-canada/us-Doliticai-EeoeraDhv/new-iersevl As a result, business surged and in 1988
Orrick was involved in more bond business than any lav,'firm in the country, according to trade newspaper The Bond Buyer.
after ranking fourth the year before. The momentum stalled for the New York office by the end of the decade, and the firm was
at a crossroads. It experienced some lackluster years, the average per partner profits dropped well below other leading San
Francisco law firms, and some key lawyers defected.
New Chairman Leads Firm Into the 1990s
I n 1990 the Orrick partners elected Ralph H. Baxter, Jr., a labor litigator, as their new chairman. He quickly took steps to
improve the firm's balance sheet and grow' partner profits to a much high level. He cut staff and eased out partners who were
not producing enough work, and he also embraced a strategy of geographic expansion and placed less emphasis on the San
Francisco market. At the time Los Angeles (/'Dlaces/united-states-and-canada/us-political-EeoEraDhv/los-anEelcs) had 30
lawyers. New York 50. and San Francisco 175. Baxter's goal was to build the Los Angeles and New York offices to the same size
as San Francisco. Because the California economy soon slowed, Baxter had to adjust his plans, cutt ing back on his Los Angeles
aspiration. In 1983 Orrick opened a Washington, D.C, office, but New York remained the key to thefirm's future. According to
Kfiysten Crawford, Wiringfor The American Lawyer in a 1998 profile on Baxter, "As the financial center of the world, New York is
where the deals get done—the mergers, the project financings, the securitizations. New York is also the link to other markets
such as London, Hong Kong (/olaees/asia/chinese-political-geograohv/hong-kong). and Latin American, in Baxter's mind, a firm
that seeks to be a global player—a truly exceptional lawfirm—must first make a stand in New York."
Orrick used its ties to investment banks to build up existing practices and add others in New York. The first target was
securitization (turning loans, mortgages, and the like into tradable securities), followed by project: finance. The firm's success in
New York in these areas then served to reinforce Orriek’s position on the West Coast in securitization work The sizeof the
New York office grew steadily in the 1990s. reaching 165 lawyers by 1998 to become larger than the San Francisco office,
which now employed 155 lawyers.
Company Perspectives:
The firm exists to help our clients achieve their goals and solve (heir problems by performing effective, challenging and innovative legal
work on their behalf, with financial results that wilt permit the firm to advance and flourish.

Report AtfrwflsO'Pnnl

The 1990s also saw Orrick make a belated entry into the Silicon Valley. By this point its rivals had long since carved up the best
corporate work, so in 1995 Orrick's new Palo Alto f/nlacgs/united-srates-anri-canada/us-nnlitiral-Beograohy/naln-altoinffirp
focused on intellectual property litigation.To jumpstart the practice,the firm lured a high-profile litigation lawyer, Terrence
McMahon, from a chief rival. McMahon, nicknamed "Mad Dog," was an impressive calling card for the office. “We don't intend
Wo use cookies to personalise content end ads. to provide sodai media features and to
analyse our traffic. We also share information about your use of our site with our social media,
advertising and analytics partners. Coofcto Policy fhttost/Mww.oncvcIooodia .camtorlvacy)
http$J/vAvw.encydopedia.oonVboc^s/politics-anct-business^naga2ffies'‘ofYick-hefni>glori-flfx}-Butdiff6-llp

20 a

> cookie settings

-/ AcCOpi Coofcfes

4/9

(2U 01 it)
9/18/2019

Case: 18-17134, 09/24/264:8, MDti4iW4Q963wQ)crfiBtEy&txkMccRage 20 of 21

One area sorely lacking in the late 1990s was Orrick's litigation capability. To address t hat need, Orrick entered into talks in
1987 to merge with an old-line New York law firm Donovan, leisure, Newton & I rvine, which had been struggling since a
decline in antitrust work in the 1980s and was now considered too small by many potential clients. It appeared to be a good fit
for both firms, and Donovan, Leisure's partner voted to approve the merger, but talks faltered in early 1998, due in large part,
according to press accounts, to a legal conflict: Donovan. Leisure was being sued by a mutual client. In the end. about 40 of
Donovan, Leisure's 60 lawyers were hired by Orrick, which essentially took the ones it wanted, and Donovan, Leisure was
dissolved. As a result, Baxter told the press, "We will now have one of the most complete law practices in New York City." While
Orrick was acquiring a litigation practice, it was also taking steps to become an inter national law f/social-sciences-andlaw/law/international-law/inter national-law) firm, A Tokyo office was opened in 1997, followed by a London office in 1998.
Orrick continued its aggressive expansion with the start of the 2000s. looking to grow both domestically and overseas. The
firm opened an office in Seat tle f/places/unitcd-statcs-and-canada/us-Dolitical-neography/soattlcUn 2000 to mainly seek work
from clients involved in the Internet f/science-and-technoloev/comouters-and-electrical-enaineerine/computers-andcomoutine/internet) and telecommunications industries. To beef up its Pacific Northwest presence, Orrick looked to add to its
roster of lawyers. It soon identified a group of lawyers employed in Portland, Oregon-based Ater Wynne LLP, who were hired
away in March 2003. Most of the lawyers worked in Ater Wynne's finance group, but what made them especially attractive was
their involvement in thefast growing practiceof Indian tribal deals, an area Orrick had begun to purse. Inonestroke, thefirm
became a leader in the practice area. Also in the United States (/olaces/united-states-and-canada/us-politicalgeographv/united-states) during this period, Orrick opened an office in OrangeCounty, California, by acquiring intellectual
property lawyers from the firm Lyon & Lyon,

Ropcrt Aftantsernem

Orrick was even more aggressive on the international front in the early 2000s. In 2002 it established an office in Paris by
acquiring the 42-lawyer operation of Watson, Farley & Williams. It would focus on cross border and domestic transactions
involving structured finance, leasing, and asset financing. A year later, Orrick hired 23 lawyers from Ernst & Young legal affiliate
Studio Legale Tributario and opened an office in Milan. Italy, to help the firm in its cross-border business in Europe
f/olaces/oceans-c-onl.inents-anri-nolar-regions/or.eans-and-contingnts/'eijrnneland Asiaf/nlar.es/nr.eans-cnntinpnfs-and-nolarreeions/oceans-and-continents/asia). In 2004 a Rome office was added through the hiring of the 16-lawyer firm Studio Legate e
Tributario. which focused on banking and finance and administrative law. In that same year, the Tokyo office expanded, hiring a
>r<
Orrick opened an office in Moscow in 2005, and supplemented it with the launch of a Russian practice in London and
Washington. D.C. By acquiring a 25 lawyer group from Coudert Brothers in 2005, Orrick also opened an office in Hone Kone
Republic of China (/□laces/asia/chinese-political-Eeop.raDhv/china).
Principal Operating Units
Transactional Practices: Litigation Practices.

Wo uso cookies to personalise content end ads. to provide social media features and 10
analyse our traffic. We also share Information about your uso of our site with our social media.

Http«-JAvwnrlf.encyck»pedia.<»rnfoooks/polKics-erid-busine3s-fTiagazmesforr1ciL-herm>gton-Ai>d-€utc(iffe*llp

21 a

> Cookie Setting*

✓ Accept Coofe**

5/9

(in OT ZZ)
9/1 a/201%

Case; 18-17134, 0d/24/2dr1,a.

of 21

Key Dates:
1885:
Law firm Jarboe, Harrison & GoodfeJIow established in San Francisco.
1910:
William H. Orrick Joins firm.
1927:
George Herrington named partner.
1932:
EricSutciiffe joins firm.
1947:
Sutcliffe begins 30-year tenure as firm's managing partner.
I960:
Firms settles on name: Orrick, Herrington and Sutdiffe LLP,
1984:
New York office opens.
1990:
Ralph R Baxter. Jr., named chairman.
1995:
Silicon Valley officeopens,

mB:
London office evens.
2002:
Paris officeopens.

2005:
Offices in Moscow and Hong Kong open.

Further Reading
Crawford, Krysten, "The House That Ralph Built" The American Lawyer,March 1998, p. 50,

states-and-canbdaAjs-Dh^'sicol-seosraohvAvall-streei) Journal. January 9 1989, p. 1.
Hogarth, Marie-Anne. "William McKee, 78, Orrick Partner and Firm Chairman," The Recorder, October 29.2004.
Kellher, Kevin, ."Orrick, Herrington Joins Silicon Valley's legal Fray," Son Francisco Business, March 24,1995, p. 1.
Peariman, Laura, "Alas, Poor Orrick," American Lawyer, May.2001, p. 21
Petersen, Melody, "Donovan, Leisure, Old-Line Law Firm, to Shut Its Doors," New York Times, April 20.1998, p, D2.
Rauber, Chris, "Orrick Eschews Overseas Offices for U.S. Growth," San Francisco Business. September 6.1991, p. 17.

Your Health Matters

A*B*t§pn3ti\/e

We us© cookies to personalis© contain and ads. to provide social media features and lo
analyse our traffic, Wo stso share Information about your use of our site with our social media.

https JAYWw.encyclopedia.ct>m/book6i,polfti£s-and-bu$fries&-maga3tines/on‘ick-herfTngtofi-and-sutclifte-llj)

22 a

> Cookie Settings

/ AcegptCoofcies

'6/9

(zz or zz)
Case: 18-17134,09/24/2019, ID: 11440961, DkfEntry: 21-2, Page 1 of 1

CERTIFICATE OF SERVICE
I hereby certify that on the 23rd day of September, 2019,1 electronically filed
the foregoing, APPELLANT’S CORRESPONDENCE TO THE COURT
CONCERNING POSSIBLE CONFLICT OF INTEREST: ATTENTION CLERK
OF COURT, with the Clerk of the Court for the United S tates Court of Appeals
for the Ninth Circuit by using the appellate CM/ECF system.
Participants in the case who are registered CM/ECF users will be served by
the appellate CM/ECF system.

Respectfully submitted this 23rd day of September 2019

/s/Norine Cave
Norine Cave
Norine Cave, Appellant, ProSe

23 a

APPELLEES RESPONSE TO APPELLANTS CORRESPONDENCE
TO THE COURTCONCERNING POSSIBLE CONFLICT OF
INTEREST
Case: 18-17134,09/26/2019, ID: 11445059, DktEntry: 22-1, Page 1 of 4

NO. 18-17134

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Norjne Cave,
Plaintiff-Appellant,
v.
Delta Dental of California,
Defendant-Appellee.
On Appeal from the United States District Court
for the Northern District of Cal ifornia
No. 3:18-cv-01205 WHO
Hon. William H. Orrick
RESPONSE TO APPELLANT’S CORRESPONDENCE TO THE COURT
CONCERNING POSSIBLE CONFLICT OF INTEREST

DENNIS G. ROLSTAD (SBN 150006)
drolstad@hinshawlaw.com
BRIAN S. WHITTEMORE (SBN 241631)
bwhittemore@hinshawlaw.com
HINSHAW & CULBERTSON LLP
One California Street, 1.8th Floor
San Francisco, CA 94111
Telephone: 415-362-6000
Facsimile: 415-834-9070
Attorneys for Defendant-Appellee
DELTA DENTAL OF CALIFORNIA

24 a

Case: 18-17134,09/26/2019, ID: 11445059, DktEntry: 22-1, Page 2 of 4

Defendant-Appellee Delta Dental of California respectfully presents the
following Response, and concurrently filed Declaration, to Appellant Norine
Cave’s correspondence concerning possible confl ict of interest.
In sum, the Hinshaw & Culbertson associate at issue did not work on this
suit while an extern for District Judge William Orrick, and indeed Appellant’s suit
was not filed until long after her externship had ended. (Declaration of Angela
Han (“Han Decl”) 4.) Moreover, the associate has not worked on the defense of
Appellant’s suit while employed at Hinshaw. (M at 3.) Under applicable
authorities there is no conflict of interest or possible disqualification. Moreover, it
does not appear the Judge Orrick ever worked for the law firm bearing the name of
his grandfather, Orrick, Herrington & Sutcliffe LLP (“the Orrick law firm”), a firm
which has no involvement with Appellant’s suit, and the existence of the Orrick
law firm or its representation of Defendant-Appellee in another matter also does
not present a conflict.
Angela Han
Angela Han is an associate attorney with Hinshaw & Culbertson, LLP,
counsel for Defendant-Appellee here, and has been employed fulltime by Hinshaw
& Culbertson since September 25,2017 and was previously a summer associate for
Hinshaw & Culbertson. (Han Decl, ^ 1.) Angela Han served as a judicial extern
for Judge Orrick from January 11,2016 through April 22,2016. (Han Decl, ^ 2.)
Ms. Hah has not worked on this suit concerning Appellant while employed at
Hinshaw & Culbertson, and did not have any contact with the suit while she was
an extern for Judge Orrick, (Han Decl,

34.) Indeed the original complaint in

this suit was not filed by Appellant until January' 24,2018, long after Ms. Han’s
judicial externship had ended. (Defendant-Appellee’s Excerpts of Record at 251.)
California authorities provide that Ms. Han’s prior judicial externship is hot
a conflict or disqualification of any kind. Vicarious disqualification, and hence
i

RESPONSE TO APPELLANT’S CORRESPONDENCE TO THE COURT
CONCERNING POSSIBLE CONFLICT OF INTEREST

25 a

Case: 18-17134, 09/26/2019, ID: 11445059, DktEntry: 22-1, Page 3 of 4

conflict, only exists if the former government lawyer had responsibility over the
matter in dispute or acquired confidential information relating thereto while
working for the government. See Chambers v. Superior Court, 121 Cal.App.3d
893,902-903,175 Cal.Rptr. 575,581 (1981). Ms. Han had no responsibility over
this suit at the time she was an extern, as this suit had not even been filed yet.
California Rule of Professional Conduct 1.11(a) similarly provides that a lawyer
who formerly served as a government employee shall not represent a client in a
matter in which the lawyer participated personally and substantially as a public
employee. As Ms. Han neither represents Defendant-Appellee here and did not
participate in this suit in any manner as a public employee, she is neither conflicted
nor disqualified.
Judge Orrick and the Orrick Law Firm
The information submitted by Appellant does not show that Judge Orrick
ever worked at the Orrick law firm. Instead the materials show that the firm is
named in part after William H Orrick who joined the firm in 1910 and practiced
there until the 1960’s. (See Encyclopedia.com entry' attached to Appellant’s
Correspondence, p. 2/9.) California authorities show' that vicarious liability applies
when a government employee was directly involved in a matter while previously a
private lawyer. See, e.g., San Francisco v. Cobra Solutions, Inc., 38 Cal.4th 839,
852-853,43 Cal.Rptr.3d 771,781-782 (2006), There is no evidence that Judge
Orrick was invol ved in the suit in which the Orrick law firm represents DefendantAppellee, and the fact that a San Francisco law firm bears the name of Judge
Orrick’s grandfather does not create any conflict or disqualification.

2

RESPONSE TO APPELLANT’S CORRESPONDENCE TO THE COURT
CONCERNING POSSIBLE CONFLICT OF INTEREST

26 a

Case: 18-17134,09/26/2019, ID: 11446059, DktEntry: 22-1, Page 4 of 4

Conclusion
Neither Ms. Han ’s prior judicial externship with Judge Orrick, or DefendantAppellee’s representation by the Orrick law firm in another matter, creates a
conflict or disqualification. Appellant’s concerns should be set aside.
Respectfully Submitted,
DATED: September 26, 2019

H1NSHAW & CULBERTSON LLP
By: s/Demis G: Rolsiad
DENNIS O. ROLSTAD

3

RESPONSE TO APPELLANT’S CORRESPONDENCE TO THE COURT
CONCERNING POSSIBLE CONFLICT OF INTEREST

27 a

Additional material
from this filing is
available in the
Clerk's Office.

